No. _________
(CAPITAL CASE)
_________________________________________________
IN THE

Supreme Court of the United States

RODERICK NAPOLEON HARRIS,
Petitioner,
v.
TEXAS,
Respondent.
_
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
____________________________
The petitioner, Roderick Napoleon Harris, seeks leave to file the petition for a
writ of certiorari submitted herewith without prepayment of costs and to proceed in
forma pauperis. Mr. Harris, currently incarcerated on Texas's death row, is
represented by the undersigned, on a purely pro bono basis, and the Office of
Capital and Forensic Writs, a state public defender agency charged with
representing indigent individuals in state post-conviction proceedings.
In 2009, the Criminal District Court No. 7, Dallas County, Texas, found that
Mr. Harris was indigent, and provided him court-appointed counsel at trial because
he is indigent. Following his conviction and death sentence, Mr. Harris continued

1

to be represented by court-appointed counsel because he is indigent. Pursuant to
the attached Order, on May 22, 2012, the Criminal District Court No. 7, Dallas
County, Texas, found that Mr. Harris was indigent and therefore appointed the
Office of Capital Forensic Writs as his post-conviction counsel. The Texas courts
later granted the undersigned leave to appear as pro bono counsel to represent Mr.
Harris, together with the Office of Capital Forensic Writs.
Mr. Harris has been granted leave to proceed in forma pauperis throughout
the entire history of the state post-conviction matter, including in proceedings below
before the Texas Court of Criminal Appeals.
Wherefore, Mr. Harris moves this Court for leave to file the petition for writ
of certiorari submitted herewith in forma pauperis.
Respectfully submitted,

GWENDOLYN C. PAYTON
Counsel of Record
JOHN R. NEELEMAN
KILPATRICK TOWNSEND &
STOCKTON LLP
1420 Fifth Avenue
Suite 3700
Seattle, WA 98101
(206) 626-7714
gpayton@kilpatricktownsend.com
jneeleman@kilpatricktownsend.com

ADAM H. CHARNES
KILPATRICK TOWNSEND &
STOCKTON LLP
2001 Ross Avenue
Suite 4400
Dallas, TX 75201
(214) 922-7106
acharnes@kilpatricktownsend.com

Benjamin Wolff
OFFICE OF CAPITAL AND FORENSIC
WRITS
1700 N. Congress Avenue
Suite 460
Austin, Texas 78701
(512) 463-8600
Benjamin.Wolff@ocfw.texas.gov
2

CAUSE NO.
THE STATE OF TEXAS

§

vs.

§

RODERI CK N. HARRIS

§

;:tJf - (JO L/tJy'
CRil\HN AL DISRICT COURT
NO.7
DALLASCOUNTY,T~XAS

ORDER AND NOTICE
The above named defendant was convicted of capital murder and sentenced
to death on May 21, 2012. The Comt finds that the defendant is indigent and
desires to have counsel appointed for the purpose of a writ of habeas corpus under
Art. 11.071, Texas Code of Criminal Procedure .
Therefore , the Court hereby appoints the Office of Capital Writs and
Director Brad D. Levenson as counsel for defendant to investigat e the case, file the
appropriat e writ, and represent the defendant fully. Following the Motion for New
Trial, trial defense counsel are relieved oftheiT representa tion of Mr. Han·is.
The District Clerk is hereby ordered to fmward a copy of this Order and
Notice to the Office of Capital Writs and to the Court of Criminal Appeals.
Appointed counsel's address is as follows:
Brad D. Levenson
Office of Capital Writs
Stephen F. Austin Building
1700 N . Congress Avenue, Suite 460
Austin, Texas 78711
512-463- 8502- Direct
512-463-8 590 ~Fax
Brad.Leve nson@ocw.texas.gov
So ordered this

z

2-

day of May 2012 .

s:~
l?
~/
Michael Snipes
Presiding Judge
Criminal District Court No. 7

